September 28, 2007

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:          Management Advisory – Color-Code Capping Report
                  (Report Number NO-MA-07-003)

This capping report summarizes our work on color-coding issues (Project Number
07XG033NO000). The report identifies inconsistencies in color-code tagging that
adversely affect the processing of Standard Mail®. In this, our fifth and final report on
color-coding, we identify opportunities to improve color-coding processes nationwide.

                                                 Background
The U.S. Postal Service uses color-coding1 to facilitate the timely processing, dispatch,
and delivery of Standard Mail to meet established service standards. The purpose of
color-coding is to sequence the mail to ensure First-In, First-Out (FIFO) processing.

Postal Service policy requires a color-code tag on all Standard Mail, regardless of
where the Postal Service receives it. This code, represented by a colored tag,
corresponds to the day that mail should be cleared from operations or delivered.
Processing and Distribution Center (P&DC) employees generally use colored placards
or tags to code mail. Table 1 presents the 1-Day Clearance Matrix for color-code tags.

                                    Table 1. 1-Day Clearance Matrix

                          Receipt Day                Color-Code             Clearance Day
                           Saturday                    White                    Sunday
                            Sunday                      Blue                   Monday
                            Monday                    Orange                   Tuesday
                           Tuesday                     Green                 Wednesday
                          Wednesday                    Violet                  Thursday
                           Thursday                    Yellow                   Friday
                            Friday                      Pink                   Saturday




1
 Employees apply colored tags to Standard Mail containers based on the arrival time of mail and the facility’s critical
entry time.
Color-Code Capping Report                                                                           NO-MA-07-003



                            Objective, Scope, and Methodology
This report summarizes the results of our recent reviews at P&DCs in Portland, Oregon;
San Diego, California; Bellmawr, New Jersey; and Mobile, Alabama, with the objective
of identifying opportunities to enhance color-coding processes nationwide. We also
reviewed the National Color-Code Policy, compared and analyzed the color-code tags
from each site, and met with Postal Service Headquarters personnel.

We conducted this review from June through September 2007 according to the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations with management officials on June 21, 2007 and included
their comments where appropriate.

                                       Prior Review Coverage
The U.S. Postal Service Office of Inspector General (OIG) has issued four reports on
color-coding of Standard Mail. These reports identified opportunities to improve color-
coding procedures and practices at specific locations. (See Appendix A for prior review
coverage.)

                                      Capping Report Results

Color-Coding Application Inconsistencies

Based on the four reviews, we found that 2,065 out of 2,202 Standard Mail containers
(about 94 percent) were tagged with the correct color-code on arrival and processed
with the original tag. (See Appendix B.) However, the color-coding on 137 of the 2,202
Standard Mail containers (about 6 percent) did not conform to Postal Service policy.
Specifically:

    •   94 containers were not color-coded.

    •   43 containers had an incorrect color-code tag.

Also, 920 of the remaining 2,065 Standard Mail containers coded with the correct color
did not conform to best practices.2 Specifically:

    •   694 containers had a color-code tag that was missing both the time and date the
        mail arrived.

    •   226 containers had a color-code tag that was missing the time the mail arrived.


2
 Network Operations Management Service, Review of Processing Facilities in the North Florida Jacksonville District,
dated January 2006, discusses best practices for color-coding.




                                                         2
Color-Code Capping Report                                                                           NO-MA-07-003




Color-Coding Tag Inconsistencies

Color-code tags were not in a standardized format, and the contents of the tags were
inconsistent. (See Table 2.)

                       Table 2. Summary of Review of Color-Code Tags

    Location         Standardized           Critical         Colored        Clearance          Time        Date
                        Format               Entry           by Day            Date            Slot        Slot
                                             Time                           Identified
                                            Noted

Mobile,                     No                  No             No               Yes             Yes         Yes
Alabama
Bellmawr,                   No                  No             Yes              Yes             Yes         Yes
New Jersey
San Diego,                  No                  No             Yes              Yes             Yes         Yes
California
Portland,                   No                  No             Yes               No             No           No
Oregon3

The following illustrations show color-code tags in use at the four locations we visited.




Illustration 1: Color-code tag                                Illustration 2: Colored strip of paper used in
used at the Portland P&DC.                                    some cases instead of a color-code tag at the
                                                              Portland P&DC.




3
  In some cases, the Portland P&DC used appropriately colored strips of paper instead of actual tags. However,
these strips of paper did not have slots for the time and date the mail was received.




                                                         3
Color-Code Capping Report                                                                              NO-MA-07-003




Illustration 3: Color-code tag                                 Illustration 4: Color-code tag
used at the San Diego P&DC.                                    used at the Bellmawr P&DC.




Illustration 5: Color-code tag used at the Mobile P&DC.

The Postal Service has well-established criteria for color-coding Standard Mail. The
Postal Operations Manual (POM), Section 458, sets the National Color-Code Policy for
Standard Mail. Facilities must apply color-codes depending on the mail’s arrival time at
the facility in relation to the facility’s Critical Entry Time (CET) for Standard Mail.4

P&DC managers must develop local procedures to ensure that employees apply and
maintain the correct color-code on the mail based on its arrival time on Postal Service
property. Postal Service facilities use color-coding to determine what mail did not meet
their operating plans for the mail condition reporting system.

The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to
establish service standards for market-dominant products.5 The Postal Service must
also provide a system of objective external performance measurements for each


4
 CET is the latest time mail can enter an operation if it is to complete processing by the planned clearance time.
5
 Standard Mail is considered a market-dominant product because it accounted for 47.4 percent of the total mail
volume in FY 2006.




                                                           4
Color-Code Capping Report                                                    NO-MA-07-003



market-dominant product as a basis for measuring performance. Currently,
performance measurements for Standard Mail are under development.

Causes and Impact

We believe these inconsistencies occurred because the color-coding processes had not
always received adequate management attention. Also, the National Color-Code Policy
does not require standardized and consistent tags. In addition, responsible officials had
not always received the required training in color-coding.

Without a standardized and consistent tag and proper color-coding, the Postal Service
cannot:

   •   Ensure the timely processing, dispatching, and delivery of Standard Mail.

   •   Track service standards to ensure compliance.

   •   Always determine whether employees processed Standard Mail using the FIFO
       method.

The Postal Service plans to update the National Color-Code Policy to comply with the
Postal Accountability and Enhancement Act of 2006. This includes modernizing the
service standards and developing performance measurements. To improve color-
coding, we also recommend the following.

Recommendations

We recommend the Vice President, Network Operations Management:

   1. Issue a directive to all plants that process Standard Mail requiring managers to
      adequately oversee color-coding and provide periodic training as necessary.

   2. Standardize color-code tags nationwide, with the appropriate elements included
      on the tags.

   3. Modify the Postal Operations Manual, Section 458 to require employees to
      complete all elements on the color-code tag.

Management’s Comments
Management agreed with our finding and recommendations. They agreed to issue a
standard operating procedure requiring local managers to oversee the color-coding
processes and provide training. They developed a national standardized color-code tag
that included appropriate elements for incorporation into the color-code policy. These




                                            5
Color-Code Capping Report                                                 NO-MA-07-003



issues should be completed by January 2008. They also agreed to amend the Postal
Operations Manual, Section 458 to ensure completion of all color-code tag elements.
Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. Management’s
actions taken or planned should correct the issues identified in the report.

We appreciated the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert J. Batta, Director,
Network Processing or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    David E. Williams
    Katherine S. Banks




                                          6
Color-Code Capping Report                                                     NO-MA-07-003




                                     APPENDIX A

                            PRIOR REVIEW COVERAGE


We have issued four reports on the color-coding of Standard Mail in the last year.

   •   Color-Coding of Standard Mail at the Portland, Oregon Processing and
       Distribution Center (Report Number NO-MA-06-003, dated September 26, 2006).

   •   Color-Coding of Standard Mail at the Margaret L. Sellers Processing and
       Distribution Center (Report Number NO-MA-06-004, dated September 28, 2006).

   •   Color-Coding of Standard Mail at the South Jersey Processing and Distribution
       Center (Report Number NO-MA-07-001, dated March 20, 2007).

   •   Color-Coding of Standard Mail at the Mobile, Alabama Processing and
       Distribution Center (Report Number NO-MA-07-002, dated June 26, 2007).

These P&DCs generally color-coded Standard Mail according to the Postal Service’s
National Color-Code Policy. In each review, we found instances where color-coding did
not conform to postal policy or best practices. Management at each P&DC agreed with
the findings, and their actions, taken or planned, should correct the issues identified in
each report.




                                            7
          Color-Code Capping Report                                                                   NO-MA-07-003



                                                                       APPENDIX B

                                              Summary of Observations at All Four P&DCs

          Location        Containers            No                   Wrong                 No Date or          No Time           Total            Percent
                          Observed         Color-Coding            Color-Code                Time                              Exceptions

    Portland, OR                   576                     6                         0                107                  0              113         20%
    (Notes 1 & 2)

    Margaret L.                    697                    46                        13                506               132               697         100%
    Sellers, San
    Diego, CA

    South Jersey,                  780                    32                        14                  68               75               189         24%
    Bellmawr, NJ

    Mobile, AL                     149                    10                        16                  13               19                58         39%


    Total (Note 3)               2,202                    94                        43                694               226             1,057         48%


Note 1:      Includes 25 pallets that had color-code information written on the plastic shrink-wrap, but no evidence of date and time received.

Note 2:      Includes 70 containers that were tagged with colored slips of paper showing the correct color-code information, but no evidence of the
             date and time received.

Note 3:      137 tags (94 + 43) did not conform to Postal Service policy. An additional 920 tags (694 + 226) did not conform to best practices.




                                                                                8
Color-Code Capping Report                         NO-MA-07-003




              APPENDIX C. MANAGEMENT’S COMMENTS




                                9
Color-Code Capping Report        NO-MA-07-003




                            10
Color-Code Capping Report        NO-MA-07-003




                            11
